Audit of USAID/Iraq’s Community Action
Program
Audit Report Number E-267-05-001-P
January 31, 2005




                   Baghdad, Iraq
[This page intentionally left blank.]
January 31, 2005


MEMORANDUM
FOR:           USAID/Iraq Mission Director, James E. Stephenson

FROM:          Regional Inspector General, Baghdad, Christine M. Byrne /s/

SUBJECT:       Audit of USAID/Iraq’s Community Action Program
               (Report No. E-267-05-001-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft and have included those comments in
their entirety as Appendix II.

This report has one recommendation. In response to the draft report, USAID/Iraq
concurred with the recommendation. It also included a corrective action plan and target
date for the final action to address the recommendation. Therefore, we consider that a
management decision has been reached on the recommendation. Please provide the
Bureau for Management, Office of Management Planning and Innovation with evidence
of final actions.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                     1
[This page intentionally left blank.]




                                        2
Table of   Summary of Results.......................................................................................... 5
Contents
           Background ....................................................................................................... 5

           Audit Objective................................................................................................. 6

           Audit Finding .................................................................................................... 6

                      Did USAID/Iraq’s Community Action Program achieve
                      intended outputs? ...................................................................................6

                                 Project List Data Should Be Sufficiently Precise ......................8

           Evaluation of Management Comments............................................................10

           Appendix I – Scope and Methodology ............................................................11

           Appendix II – Management Comments...........................................................15




                                                                                                                                  3
[This page intentionally left blank.]




                                        4
Summary of   The Regional Inspector General in Baghdad, Iraq conducted this audit of
Results      USAID/Iraq’s Community Action Program to determine if the program achieved
             intended outputs. (See page 6.)

             The audit found that the Mission’s Community Action Program (CAP) did
             achieve intended outputs. Based on tests performed on 89 statistically selected
             sample projects, the CAP achieved 98 percent of its intended outputs, including
             citizen participation, inter-community cooperation, local government cooperation,
             local employment generation, and consideration of environmental concerns. (See
             pages 6-7.)

             Although the Mission and its implementing partners ensured that the CAP
             achieved its intended outputs, the audit identified an internal control that needs to
             be strengthened to improve CAP monitoring and reporting processes. This
             internal control concerns the data contained in the Project List used by the
             Mission for monitoring and reporting purposes, which did not always agree with
             supporting documentation. (See pages 8-10.)

             This report contains one recommendation to help USAID/Iraq improve its
             monitoring and reporting processes regarding the CAP. (See page 10)

             In response to the draft report, the Mission concurred with the recommendation
             and submitted a corrective action plan with a target completion date. Therefore,
             we consider that a management decision has been reached on the
             recommendation. Appendix II contains USAID/Iraq’s comments in their entirety.
             (See page 15.)



Background   During the past 25 years, the Iraqi people have experienced the hardships of three
             wars and economic sanctions. As a result, unemployment rose, income eroded, and
             productivity decreased. This economic decline, coupled with lack of investment,
             has affected the quality and capacity of the provision of social services.1

             To aid in resolving this problem, USAID’s Community Action Program (CAP)
             encourages citizens to become involved in addressing the issues that affect their
             communities. Through the program, Iraqi community associations identify and
             prioritize their needs, mobilize community and other resources, and monitor project
             implementation. This process provides a vehicle for empowering communities,
             building community cohesion, and providing evidence that the U.S. is committed to
             improving the lives of Iraqis. CAP projects include repair to local sewerage systems

             1
               Barton, Frederick D. & Bathsheba N. Crocker (January 2003) A Wiser Peace: An Action
             Strategy for a Post-Conflict Iraq


                                                                                                5
                  and roads, rehabilitation of schools, and renovations of health clinics. Women,
                  youth, and minority groups participate in the program. Because of their engagement
                  at every stage of the process, community members learn what democracy and
                  citizenry means in practice.

                  To carry out the CAP effort in Iraq, USAID drew on five of its traditional allies in
                  development and relief: Mercy Corps, International Relief and Development,
                  Agricultural Cooperative Development International and Volunteers in Overseas
                  Cooperative Assistance, Cooperative Housing Foundation, and Save the Children.
                  USAID awarded cooperative agreements to each of the five. As of August 7, 2004,
                  USAID had obligated approximately $120 million to the CAP and disbursed
                  approximately $38 million.

                  The CAP is managed by USAID/Iraq’s Democracy and Governance Office. The
                  program is being implemented under USAID’s Strategic Objective 4.2, “Increase
                  Citizen Participation in Local Government Decision-Making.” The CAP audit
                  covered the period from May 16, 2003 to August 7, 2004.



Audit Objective   As part of its fiscal year 2004 audit plan, the Regional Inspector General/Baghdad
                  performed this audit to answer the following question:

                      •   Did USAID/Iraq’s Community Action Program achieve intended outputs?

                  Appendix I contains a discussion of the audit’s scope and methodology.




Audit Finding     USAID/Iraq’s Community Action Program (CAP) did, in fact, achieve intended
                  outputs. Based on the tests performed on 89 statistically selected projects, the
                  program achieved 98 percent of its intended outputs.2

                  The Mission and its five CAP implementing partners managed the projects in
                  compliance with the requirements of the cooperative agreements. Specifically,
                  they ensured that the implementation of the projects involved the following
                  functional areas:

                      •   Citizen Participation – The projects created a sense of community and
                          involved the residents of the communities in their own governance.



                  2
                    See Appendix I for a detailed explanation of the methodology used to measure the achievement
                  rate.


                                                                                                              6
    •   Inter-community Cooperation – The projects provided opportunities for
        the communities to review social and economic development plans from a
        regional perspective and to work together on shared economic and social
        priorities.

    •   Social and Economic Infrastructure – The projects involved the
        cooperation of the local government to ensure that the projects substituted
        or complemented government efforts.

    •   Incomes and Jobs – The projects generated local employment, increased
        income by hiring community residents to implement the projects, and
        improved the local economy by using local businesses.

    •   Environmental Condition and Practices – The projects’ design and
        implementation ensured that environmental impacts and health and safety
        issues were considered.

Examples of projects implemented under the program included rehabilitation of
sewerage systems, road repairs, school construction and renovation, construction
of retaining walls, neighborhood solid waste clean-up projects, health center
renovation, and water supply improvements.




Photograph of one of a series of retaining walls constructed under USAID/Iraq’s Community
Action Program in the town of Chwarta, Iraq. Photograph includes local government officials and
an ACDI/VOCA3 project engineer. Faces smudged for security reasons. (December 2004)




3
 Agricultural Cooperative Development International and Volunteers in Overseas Cooperative
Assistance


                                                                                             7
Photograph of one of the classrooms at the Surean School constructed under USAID/Iraq’s
Community Action Program in the town of Said Sadiq, Iraq. (December 2004)

Although the Mission and its implementing partners ensured that the CAP
achieved its intended outputs, the audit identified an internal control that needs to
be strengthened in order to improve the CAP monitoring and reporting processes:
the data contained in the Project List, which the Mission uses for monitoring and
reporting purposes, did not always agree with supporting documentation.


Project List Data Should
Be Sufficiently Precise

  Summary: Contrary to USAID guidelines, some of the data contained in the
  Project List did not reconcile to the supporting documents. This was caused
  by untimely updating of the data by the implementing partners and
  insufficient review of the data by the implementing partners and Mission
  staff. As a result, some of the data were either under- or over-reported, thus
  making the Project List a less effective monitoring and reporting tool.

USAID’s Automated Directives System (ADS) 202.3.7.1, Financial Planning,
Monitoring, and Budgeting, states that the “Strategic Objective teams must
prudently plan, monitor, and manage the financial aspects of their program
throughout the life of the strategic objective.” In addition, ADS 203.3.5.1c, Data
Quality Standards, Precision, states that “Data should be sufficiently precise to
present a fair picture of performance and enable management decision-making at the
appropriate levels.”




                                                                                     8
The Project List is a monitoring tool that the Mission uses to track (1) the status of
all the CAP projects—from identification of the project, approval, tendering,
awarding of the contract, up to completion of the project—and (2) the outputs
achieved, such as the number of people employed and the amount contributed by the
impacted local community to help support the project. The implementing partners
compile the data, such as project cost and number of people aided by the project,
which are recorded in the Project List. Aside from being a monitoring tool, USAID
also uses the Project List as a data source for reports to Congress.

A test of accuracy was performed on the 89 sample projects’ data, and the results
identified the following discrepancies between what was included in the Project List
and what was supported by the underlying documentation.

Table 1 – List of discrepancies noted in the Project List out of the 89 sample
projects reviewed.

                                            No. of Sample
                                            Projects with           Percent of
            Data Element                    Discrepancies          Discrepancies
Cost of Project                                   23                    26
Amount of Community Contribution                  18                    20
Number of Direct Beneficiaries4                   24                    27
Number of Indirect Beneficiaries4                 13                    15
Employment Days                                   38                    43
Number of People Employed                         32                    36
Project Status                                     2                     2

According to Save the Children’s Chief of Party, one possible cause for the
discrepancies between the reported data and the supporting documents could be
that the Save the Children staff did not update the data in a timely manner once
the projects were completed. Regarding the disaggregated data, he said that the
lack of clear guidance during Phase I of the CAP may have caused the
discrepancies. Mercy Corps’ Chief of Party explained that his organizational set-
up of operating three autonomous offices in southern Iraq resulted in problems
with compiling and consolidating the data. In addition, three evacuations, a
hijacking incident, and the ransacking of the Amarah and Diwaniyah offices
resulted in lost documentation and misfiled or uncollected files due to their
frequent transfer for safekeeping. Overall, the auditors believed the cause of the
discrepancies was attributed to untimely updating of the data and the lack of
sufficient review of the data primarily by the implementing partners and also by
the Mission staff. Additionally, the precarious security environment prevented
the Mission staff from performing their responsibilities regarding site visits and
data verification.

4
    Disaggregated data.


                                                                                    9
                As a result, the discrepancies have made the Project List a less effective
                monitoring tool and a less accurate data source.

                For a monitoring tool like the Project List to be effective and reliable, it should
                contain sufficiently precise data. Data integrity is an essential element in
                evaluating the implementing partners’ performance and reporting program
                progress. According to the CAP Program Manager, the accuracy of the data in
                the Project List has been a problem for some of the implementing partners from
                the beginning of the program. She had addressed it numerous times in the past in
                her review of their reports. In July 2004, she requested them to scrub their
                respective data for accuracy in reporting. Notwithstanding this request, the data
                in the August 2004 Project List contained inaccuracies, so further steps need to be
                taken.

                       Recommendation No. 1: We recommend that USAID/Iraq
                       develop and implement a plan of action to improve the
                       integrity of the data in the Community Action Program’s
                       Project List in order for it to be a more effective monitoring
                       tool and a more accurate and reliable data source for reporting
                       purposes.



Evaluation of   USAID/Iraq concurred with the recommendation. It also included in its response
Management      to our draft report a corrective action plan with a target completion date.
Comments
                Based on our evaluation of the Mission’s corrective action plan, we consider that
                a management decision has been reached upon the issuance of the final report.
                However, in regard to action numbers 7 and 9 of its action plan, we suggest that
                the Mission document the random file reviews of selected projects and the
                ongoing review of data in the Project List. Discrepancies identified and their
                resolution should also be documented.




                                                                                                10
                                                                                    Appendix I

Scope and     Scope
Methodology
              The Regional Inspector General in Baghdad, Iraq conducted this audit in
              accordance with generally accepted government auditing standards. The
              objective of the audit was to determine if USAID/Iraq’s Community Action
              Program (CAP) achieved intended outputs. The audit covered the review of the
              CAP projects and the implementing partners’ project files during the period May
              16, 2003 to August 7, 2004. As of August 7, 2004, funds obligated and disbursed
              under the CAP totaled about $120 million and $38 million, respectively.

              To conduct the audit, we defined our audit population to include projects that
              were under implementation and projects that had been completed during the
              defined audit period. We used the Mission’s Project List, which contained 1,717
              projects amounting to $61.7 million in various stages of development, to identify
              our audit population of 1,411 projects amounting to $48.2 million. With the
              assistance of the Office of Inspector General/Washington statistician, we
              statistically selected a sample of 89 projects. We examined and assessed the
              Mission’s significant internal controls over the CAP by testing the 89 sample
              projects for compliance with the terms of the agreement and for accuracy of the
              data reported in the Project List. These internal controls included reviewing the
              implementing partners’ quarterly work plans and interim and semiannual reports,
              the CAP Program Manager’s field visits’ reports, and the Mission’s Project List
              and Federal Manager’s Financial Integrity Act reports for fiscal years 2003 and
              2004.

              We conducted the audit at USAID/Iraq in Baghdad, Iraq from September 1 to
              December 9, 2004. Field visits were conducted in Basrah, Chwarta, and Said
              Sadiq, Iraq. We intended to visit other CAP project sites; however, we had to
              curtail our site visits because of the precarious security situation.

              Methodology

              To answer the audit objective, we designed a sampling methodology that would
              provide a 90 percent confidence level, assuming a five percent error rate, and a
              precision of plus or minus four percent. We used stratified sampling to ensure that
              the five implementing partners’ projects were fairly represented in the sampling
              selection.

              We tested the 89 sample projects for compliance with the agreement terms
              relating to five functional areas:     citizen participation, inter-community
              cooperation, social and economic infrastructure, incomes and jobs, and
              environmental condition and practices.



                                                                                              11
We then:

           •   formulated 12 questions that covered the requirements of the five
               functional areas;

           •   designed a matrix that included the 12 questions and the 89 sample
               projects;

           •   tested the 89 sample projects for compliance by reviewing the
               project files for documentation that supported the answers to the 12
               questions; and

           •   hired translators to assist us in reviewing the Arabic documents
               contained in the project files.

Some of the functional areas may not apply to a particular project. For example, a
community action group (CAG) is different from a cluster of communities, also
known as community development group (CDG). If a CAG identified the project,
the questions under the functional area “Citizen Participation” would apply to the
project, and the functional area “Inter-community Cooperation” would not be
applicable to the CAG’s project. On the other hand, if a cluster group identified
the project, the questions under the functional area “Inter-community
Cooperation” would apply, and “Citizen Participation” would not be applicable.
A “not applicable” answer would not denote noncompliance with the
requirements.

The test-of-compliance matrix contained 1,068 elements (89 sample projects
multiplied by 12 questions), of which 330 elements were not applicable to the 89
sample projects. The resulting net total number of elements of 738 contained 16
negative responses (noncompliance). Therefore, the test showed that the CAP
achieved 98 percent (722 positive responses divided by 738 elements) of intended
outputs and an error rate of two percent (16 negative responses divided by 738
elements). Given that the error rate in our statistical sample was less than five
percent, we concluded with a 90 percent confidence level that the error rate in the
population of 1,717 projects was also less than five percent.

We also tested the data of the 89 sample projects for accuracy by reconciling them
to the documentation in the project files. We reviewed the cooperative
agreements awarded to the five CAP partners and interviewed the responsible
Mission staff, the implementing partners’ officials and staff, and our resident
investigator in Baghdad, Iraq. Our interview of the USAID cognizant technical
officers, who were based in various regions of the country, was conducted via e-
mail because of the security situation at the time of fieldwork.




                                                                                12
The defined materiality thresholds for the audit were as follows:

   •   90-100 percent achievement rate, an unqualified report will be issued;
   •   70-89 percent achievement rate, a qualified report; and
   •   less than 70 percent, a negative report.

For criteria, we used USAID’s Automated Directives System 202 and 203 and the
cooperative agreements.




                                                                                13
[This page intentionally left blank.]




                                        14
                                                                               Appendix II

Management
Comments



             Date:        January 12, 2005

             TO:          Regional Inspector General Baghdad, Christine M. Byrne

             FROM:        USAID/Iraq Acting Mission Director, Chris Milligan /s/

             SUBJECT:     Audit of USAID/Iraq’s Community Action Program

             REF:         Audit Report No. E-267-05-XXX-P)




             This memorandum transmits the Mission’s response to the Regional
             Inspector General’s draft report on the audit of USAID/Iraq’s Community
             Action Program.

             The stated objective of the audit was to ascertain whether USAID/Iraq’s
             Community Action Program (CAP) achieved its intended outputs. The audit
             found that CAP achieved 98 percent of its intended outputs, including citizen
             participation, inter-community cooperation, local government cooperation,
             local employment generation, and consideration of environmental concerns.
             The Mission is pleased with this audit finding.

             In addition, although the Mission and its implementing partners ensured that
             the CAP achieved its intended outputs, the audit identified a management
             control that needs to be strengthened to improve CAP monitoring and reporting
             processes.

                Recommendation No. 1:
                We recommend that USAID/Iraq develop and implement a plan of
                action to improve the integrity of the data in the Community Action
                Program’s Project List in order for it to be a more effective
                monitoring tool and a more accurate and reliable data source for
                reporting purposes.


                                   U.S. Agency for International Development
                                        Iraq Mission, APO AE 09316
                                            Fax +1(202)216-6276




                                                                                       15
The Mission accepts the audit recommendation.              Subsequent to the
completion of the audit fieldwork, the Mission has taken several steps to
improve the data in the Project List spreadsheet, including a request to our
implementing partners to conduct an internal review of their data files. Our
plan for corrective action with target completion date of the planned action is
outlined below.

USAID/IRAQ Mission Finalized Plan to Improve the Integrity of the Data in CAP
Project List
                               Corrective Action                               Target
                                                                        Completion Date
       The Mission will request that each Implementing Partner
  1                                                                         Completed.
       develop a plan to conduct an internal audit of its Project List.
       The Mission will review the Project List, and document any
  2    apparent data entry inconsistencies. Such notations will be          Completed.
       shared with the appropriate Implementing Partner.
       The Mission will share the results of the audit findings as soon  One week upon
  3    as the CAP audit report is issued.                                issuance of final
                                                                         CAP audit report
       Implementing Partners will conduct internal audits of the data
  4                                                                       March 14, 2005
       contained in their Project Lists.
       The Mission will monitor the implementation of the internal
  5    data audit by requesting that each Implementing Partner             April 14, 2005
       provide an audit update in their regular reports.
       The Mission will coordinate with CAP Implementing Partners
       to re-establish clear and standardized guidance for the Project
       List. Such guidance will include a review of the definitions for
  6    the following entries on the Project List: project cost; amount  February 12, 2005
       of community contribution; number of direct beneficiaries;
       number of indirect beneficiaries; employment days; number of
       people employed; and project status.
       As the security environment permits, USAID expatriate staff      Highly challenging
       will conduct site visits to the projects and offices of the         in the current
  7
       Implementing Partners. During such visits, USAID will                  insecure
       conduct random file reviews of a selected number of projects.       environment.
       The Democracy and Governance Office (DGO) USAID/Iraq
  8    will work with the USAID Regional Offices to devise a plan         March 14, 2005
       for ongoing review of data in the Project Lists.
       As the security environment permits and based on the plan              ongoing
       developed jointly with DGO, the Regional Offices will provide        throughout
  9
       ongoing review of data in the Project Lists for projects                project
       implemented in their region.                                      implementation
       When an Implementing Partner reports that a given project              ongoing
       has been completed, DGO will request confirmation that all           throughout
 10
       the data in the Project List for that entry is accurate.               Program
                                                                         implementation



                                                                                    16
The target date for the final action is April 14, 2005.

Based on the above, we request your agreement with our management
decision as stated in this memorandum for the audit recommendation.


cc. USAID / Iraq Controller, A. Fawcett




                                                                      17
